TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Contracting for Information Technology
                    Goods and Services Generally Provided
                   Intended Benefits; However, Maintenance
                     Contracts Were Not Always Supported



                                         September 2005

                              Reference Number: 2005-20-187




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 30, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Contracting for Information Technology Goods
                               and Services Generally Provided Intended Benefits; However,
                               Maintenance Contracts Were Not Always Supported
                               (Audit # 200520027)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) is receiving, benefiting from, and using information technology services
 contracted through the Modernization and Information Technology Services (MITS)
 organization.

 Synopsis
 In Fiscal Year (FY) 2004, the IRS issued 2,080 requisitions1 totaling approximately $362 million
 for computer hardware, computer maintenance service contracts, and consulting services to
 support IRS systems. Considering the costs and the types of procurements made, the IRS must
 be vigilant to prevent waste, fraud, and abuse.
 We judgmentally sampled 143 FY 2004 requisitions representing 100 contracts valued at
 approximately $46 million. Our sample included 74 requisitions for goods and services and
 69 requisitions for computer maintenance service contracts.



 1
  Requisitions are orders for goods and services. The MITS organization sends requisitions to the IRS Office of
 Procurement where they are processed and contracted for. Sometimes a single contract, such as a Treasury-Wide
 Acquisition Contract, can be used by multiple requisitions to obtain goods and services on an ongoing basis over a
 specified period.
                 Contracting for Information Technology Goods and Services
                 Generally Provided Intended Benefits; However, Maintenance
                            Contracts Were Not Always Supported


Of the 74 requisitions for goods and services we reviewed, 73 (99 percent) generally provided
the necessary benefits and services as intended. The Contracting Officer’s Technical
Representatives (COTR) and other employees we interviewed were knowledgeable about the
technical aspects of the services being obtained and the benefits generated from the contracts.
However, actions are needed to improve receiving controls over one large contract and to
reassess the cost effectiveness of the related service contract. These two contracts stem from one
requisition. While these contracts are not indicative of the IRS’ overall acquisition process for
information technology goods and services, due to the dollar amount of the contracts, we believe
actions are needed to reduce the opportunities for waste and abuse. The vendor’s receiving
controls over laptop computers were inadequate and increased the opportunities for misuse and
potential abuse of the IRS computers. Also, the related service contract to store, prepare, and
ship the computers to IRS offices was not cost effective. This contract requires the IRS to pay
$175,000 per month in FY 2005 (increasing to $185,000 per month in FY 2006) regardless of the
number of computers received. Since the contract was issued, IRS budget cuts have reduced the
number of computers expected to be purchased.
In addition, the need for maintenance contracts was not always supported. During FY 2004, the
IRS managed 978 information technology maintenance contracts and related modifications
costing approximately $121 million. Due to the lack of documentation available, we could not
evaluate whether the 69 maintenance requisitions we reviewed provided the intended benefits or
were cost effective.
The IRS routinely renews maintenance contracts without comparing the costs of the contracts to
the costs of paying for individual service calls or having IRS employees perform the
maintenance. Further, the past performance of vendors regarding the quality of work and
response times was not assessed before the maintenance contracts were renewed. Thus,
information was not readily available to assess the need for the contracts and the past
performance of vendors. In some instances, the IRS may have been able to save funds by having
IRS employees perform the maintenance or by paying for individual service calls rather than
renewing the maintenance contracts.

Recommendations
To verify and control computers purchased through the IRS’ computer replacement contract, the
Chief Information Officer (CIO) should require serial numbers to be added to invoices when the
computers are first received at the vendor’s warehouse. Additionally, the CIO should revise the
service contract for the computer replacement project so costs are based on the actual number of
computers serviced by the vendor and the actual amount of time spent to prepare and ship
computers to IRS offices.



                                                                                                  2
                 Contracting for Information Technology Goods and Services
                 Generally Provided Intended Benefits; However, Maintenance
                            Contracts Were Not Always Supported


To ensure information technology maintenance contracts are cost effective, the CIO should
require COTRs to compare the costs associated with annual maintenance contracts, individual
maintenance service calls, and IRS employees performing the maintenance. The history of
maintenance use and vendors’ past performance regarding the quality of work and response
times should also be evaluated. Periodic follow-up should be conducted to ensure COTRs are
complying with the IRS policy requiring contracts to be cost effective.

Response
The CIO agreed with all of the recommendations in this report. The vendor will be required to
maintain a spreadsheet containing the serial numbers of all IRS-owned equipment it receives,
stores, or deploys from its commercial warehouse facility. In addition, the CIO plans to
negotiate a new service contract that will either reduce costs or provide better warranty support.
The CIO will develop guidelines that will stress the need for both management and the COTRs
to work together to assess contractor performance and determine cost effectiveness of
maintenance contracts. After a maintenance contract award has been made, management will
conduct periodic reviews to ensure compliance with the new guidelines and to validate that the
contracts are cost effective. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                     3
                       Contracting for Information Technology Goods and Services
                       Generally Provided Intended Benefits; However, Maintenance
                                  Contracts Were Not Always Supported




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Information Technology Contracts Generally Provided Intended
          Benefits and Services....................................................................................Page 2
                    Recommendations 1 and 2: ................................................Page 4

          The Need for Maintenance Contracts Was Not Always Supported .............Page 4
                    Recommendation 3:..........................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Management’s Response to the Draft Report ......................Page 10
                    Contracting for Information Technology Goods and Services
                    Generally Provided Intended Benefits; However, Maintenance
                               Contracts Were Not Always Supported




                                            Background

In Fiscal Year (FY) 2004, the Internal Revenue Service (IRS) issued 2,080 requisitions1 totaling
approximately $362 million for computer hardware, computer maintenance service contracts,
and consulting services to support IRS systems. Considering the costs and the types of
procurements made, the IRS must be vigilant to prevent waste, fraud, and abuse. The Inspector
General Act of 19782 requires Inspectors General to perform audits and investigations relating to
fraud, waste, and abuse and to evaluate program effectiveness.

In the IRS, the Chief Information Officer (CIO) is the official responsible for ownership,
management, and control of all information technology property. The CIO has the responsibility
for strategic information technology planning, data administration, information technology
standards and privacy assurance, and telecommunications. The CIO’s office is the IRS’
principal point of reference, authority, and responsibility for information technology
modernization activities, information systems resources, and tax systems reengineering efforts.
The IRS uses the Office of Procurement, within the Agency-Wide Shared Services organization,
to ensure all Federal Government procurement regulations and IRS policies and procedures are
followed. The Office of Procurement ensures the uniform interpretation and implementation of
the Federal Government procurement regulations, statutes, and directives. In addition, the Office
of Procurement establishes uniform policies and procedures, conducts quality reviews of
contractual instruments and procurement operations, and provides cost and price analysis on
major acquisitions.
Recently, as a best practice, the Government Accountability Office has stressed the importance
of a strategic acquisition process to obtain knowledge and improve spending practices. The
General Services Administration continues to emphasize that significant Federal Government
expenditures require the need to constantly improve the Federal Government acquisition process.
This review was performed at the Modernization and Information Technology Services (MITS)
offices in New Carrollton, Maryland; Austin and Dallas, Texas; Fresno, Oakland, and
San Francisco, California; Martinsburg, West Virginia; and Memphis, Tennessee, during the
period January through May 2005. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.


1
  Requisitions are orders for goods and services. They are sent to the IRS Office of Procurement where they are
processed and contracted for. Sometimes a single contract, such as a Treasury-Wide Acquisition Contract, can be
used by multiple requisitions to obtain goods and services on an ongoing basis over a specified period.
2
  5 U.S.C.A. app. 3 (West Supp. 2003).

                                                                                                         Page 1
                 Contracting for Information Technology Goods and Services
                 Generally Provided Intended Benefits; However, Maintenance
                            Contracts Were Not Always Supported




                                Results of Review

From the 2,080 information technology requisitions issued in FY 2004, we judgmentally
sampled 143 requisitions representing 100 contracts valued at approximately $46 million. Our
sample included 74 requisitions for goods and services and 69 requisitions for computer
maintenance service contracts. Generally, the IRS received, benefited from, and used the goods
and services procured. However, actions are needed to improve receiving controls over one
large contract and to reassess the cost effectiveness of the associated service contract. In
addition, maintenance contracts need to be more closely evaluated.


Information Technology Contracts Generally Provided Intended
Benefits and Services

Of the 74 requisitions for goods and services we reviewed, 73 (99 percent) generally provided
the necessary benefits and services as intended. The Contracting Officer’s Technical
Representatives (COTR) and other employees we interviewed were knowledgeable about the
technical aspects of the services being obtained and the benefits generated from the contracts.
In addition, end users were able to demonstrate that the goods and services were received, used,
and provided the necessary benefits. A common attitude among the MITS staff responsible for
the contracts in our sample was to emphasize the importance of minimizing costs and ensuring
funds were spent wisely to maximize the value the IRS receives from these goods and services.
However, actions are needed to improve receiving controls over one large contract and to
reassess the cost effectiveness of the related service contract. These two contracts stem from one
requisition. While these contracts are not indicative of the IRS’ overall acquisition process for
information technology goods and services, due to the dollar amount of the contracts, we believe
actions are needed to reduce the opportunities for waste and abuse. The vendor’s receiving
controls over laptop computers were inadequate and increased the opportunities for misuse and
abuse. Also, the related service contract to store, prepare, and ship the computers to IRS offices
was not cost effective. This contract requires the IRS to pay $175,000 per month in FY 2005
(increasing to $185,000 per month in FY 2006) regardless of the number of computers received.
Since the contract was issued, IRS budget cuts have reduced the number of computers expected
to be purchased.




                                                                                          Page 2
                 Contracting for Information Technology Goods and Services
                 Generally Provided Intended Benefits; However, Maintenance
                            Contracts Were Not Always Supported




Equipment received and accepted by the IRS was not controlled properly, and the
service contract was not cost effective

We reviewed two contracts: one that involved the purchase of laptop computers to replace the
IRS’ field office workstations and one that provided the service to store, install software on, and
deliver the computers to the IRS field offices. The IRS did not properly control receipt of the
computers, and the related service contract was not cost effective.
The purchase contract, for $919,000, involved a partial order for the replacement of IRS
computers and monitors at local field offices. The amount of the award for FY 2004 totaled over
$26 million. The computer manufacturer shipped the equipment to the vendor’s warehouse
where it was stored until the IRS requested delivery. The only verification for receipt and
acceptance of the new inventory was a total count of items by model number per delivery order,
which the IRS verified when the equipment was delivered to the vendor’s warehouse. Serial
numbers were not included on the invoices until the equipment was shipped to the IRS.
While we did not identify any improprieties by the vendor, delaying the recording of serial
numbers on the invoice until the equipment was shipped to the IRS increased the opportunities
for misuse and potential abuse of the IRS computers. The vendor commingled IRS computers
with similar computer equipment for other clients in the same warehouse. As a result, the IRS
could not be assured it was receiving new equipment or the specific equipment shipped by the
computer manufacturer.
Additionally, the service contract related to the equipment was not cost effective. The IRS
contracted with the vendor to store, install software on, barcode, and ship computers to IRS
offices throughout the country. The contract for FY 2005 is for $175,000 per month and will
increase to $185,000 in FY 2006. In negotiating this contract, the IRS planned to replace
one-third of its computer inventory per year for the next 3 years. Assuming the IRS could carry
out its plans with a stable flow of computers being delivered each month, the overall cost of the
contract appears to be reasonable. However, since the contract was issued, IRS budget cuts have
reduced the number of computers being replaced.
Although the IRS is purchasing fewer computers than expected, the vendor is still being paid the
same amount. As a result, the per unit cost of contracting with this vendor increased due to the
reduced number of computers purchased. Even if the IRS purchased no computers during the
time period covered by the contract, it would still be required to pay the monthly storage and
installation costs to the vendor. Revising this contract in FY 2006 to be based on the number of
computers actually purchased could prevent the IRS from paying the contractor for services that
are not provided. The IRS indicated it was reviewing this situation to consider alternatives.




                                                                                            Page 3
                 Contracting for Information Technology Goods and Services
                 Generally Provided Intended Benefits; However, Maintenance
                            Contracts Were Not Always Supported




Recommendations
To reduce the opportunities for waste and abuse, the CIO should:
Recommendation 1: Require that serial numbers be added to invoices for the computer
replacement contract to verify and control inventory when computer equipment is first received
by the IRS at the vendor’s warehouse.
       Management’s Response: The Associate CIO, End User Equipment and Services,
       will require the vendor to maintain a spreadsheet and provide the IRS with the serial
       numbers of all IRS equipment it receives, stores, or deploys from its commercial
       warehouse facility. This information will be used to verify, track, and control the
       equipment inventory.
Recommendation 2: Revise the service contract for the computer replacement project so
costs are based on the actual number of computers serviced by the vendor and the actual amount
of time spent to store, install software on, and ship computers to IRS offices.
       Management’s Response: The End User Equipment and Services organization is
       currently negotiating with the vendor to address costs. In addition, the new contract
       should provide better warranty support, which may include onsite contractor support at
       the IRS depot.


The Need for Maintenance Contracts Was Not Always Supported

During FY 2004, the IRS managed 978 information technology maintenance contracts and
related modifications costing approximately $121 million. Maintenance contracts can provide a
fast and efficient method for repairing computer hardware. As such, vendors offer different
levels of maintenance based on the level of service needed to maintain operations. Response
times range from 2 hours for onsite repair service, which may be needed for mission critical
systems, to 2 days for less critical systems.
Our sample of 143 information technology requisitions included 69 maintenance requisitions
representing 54 contracts. Due to the lack of documentation available, we could not evaluate
whether these 69 maintenance requisitions were prudent. We were unable to locate detailed
usage logs to support the need for maintenance contracts. In addition, data were not maintained
on the quality or timeliness of the vendors’ performances. Without the necessary information,
the IRS has no way to monitor and evaluate the costs and/or benefits of these contracts.




                                                                                         Page 4
                  Contracting for Information Technology Goods and Services
                  Generally Provided Intended Benefits; However, Maintenance
                             Contracts Were Not Always Supported




The IRS did not evaluate the need for information technology maintenance
service contracts before renewal

In a previous review,3 we determined the IRS was unnecessarily paying for maintenance on some
computer assets. We recommended the IRS issue an overall maintenance policy requiring
managers to ensure maintenance contracts are cost effective.
Our review of the 69 maintenance requisitions (54 contracts) determined the IRS routinely
renews maintenance contracts without comparing the costs of the contracts to the costs of paying
for individual service calls or having IRS employees perform the maintenance. In addition, the
past performance of vendors regarding the quality of work and response times was not assessed
before the maintenance contracts were renewed. Without having sufficient documentation of
past performance and an evaluation of maintenance contracts with other alternatives, we could
not assess the need for the contracts. In some instances, the IRS may have been able to save
funds by having its employees perform the maintenance or by paying for individual service calls
rather than renewing the maintenance contracts.
We identified 1 instance in which a system administrator in the MITS organization had been
performing maintenance on a computer for several years, unaware that an ongoing maintenance
agreement existed on the equipment at a cost of $6,317 annually. The contract was not used
because spare parts were available and repairs were performed by the system administrator when
a particular server needed repair.
The system administrator was not aware of the existence of the maintenance agreement until we
reviewed the contract and asked if the benefits were realized. As a result, funds spent on the
maintenance contract were wasted. The IRS could have used these funds elsewhere or better
used the maintenance contract to receive the benefits it provided if the COTR had evaluated past
usage of the contract and communicated it to the end user.


Recommendation
Recommendation 3: To ensure information technology maintenance contracts are cost
effective, the CIO should require COTRs to compare the costs associated with annual
maintenance contracts, individual maintenance service calls, and IRS employees performing the
maintenance. The history of maintenance use and past performance regarding the quality of
work and response times should also be evaluated. Periodic follow-up should be conducted to
ensure COTRs are complying with the IRS policy requiring contracts to be cost effective.


3
 The Management of Information Systems Maintenance Contracts Can Be Improved (Reference
Number 2002-20-100, dated May 2002).

                                                                                          Page 5
         Contracting for Information Technology Goods and Services
         Generally Provided Intended Benefits; However, Maintenance
                    Contracts Were Not Always Supported



Management’s Response: COTRs and project management will work together to
review past performance and the quality of the service provided. After contract award,
management will conduct periodic reviews to ensure the COTRs are complying with the
guidelines for maintaining cost-effective contracts. These guidelines will be issued by
the Associate CIO, End User Equipment and Services.




                                                                                 Page 6
                 Contracting for Information Technology Goods and Services
                 Generally Provided Intended Benefits; However, Maintenance
                            Contracts Were Not Always Supported



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) is receiving, benefiting from, and using information technology services contracted
through the Modernization and Information Technology Services (MITS) organization. To
accomplish this objective, we:
I.     Determined whether procurements for information technology goods and services were
       received in compliance with contracts. We downloaded from the web-based Request
       Tracking System Fiscal Year 2004 requisitions and contracts submitted by the MITS
       organization for information technology goods and services.
       A. Reviewed the 2,080 requisitions for information technology goods and services and
          selected a judgmental sample of 143 requisitions (representing 100 contracts valued
          at approximately $46 million). A judgmental sample was taken because we had no
          need to project our results to the total population of information technology
          contracts.
       B. Compared receiving documents with payment documents for each requisition in our
          sample to determine whether the MITS organization received the goods and services
          paid for. We interviewed appropriate IRS personnel to verify whether they had
          received the goods and services provided under the terms of the contract. In
          addition, we determined whether the labor costs, labor categories, and indirect costs
          were reasonable, allocable to the contract, and not prohibited by the contract or
          Federal Government statute or regulation.
       C. If the goods and services were not received, evaluated the effectiveness of
          management controls to determine the cause.
II.    Determined whether procurements for information technology services within the MITS
       organization provided benefits and were actually used. Using the same judgmental
       sample of requisitions, we:
       A. Interviewed the responsible business unit employees and determined whether the
          goods and services were used and the benefits were realized by the IRS.
       B. Reviewed the contract/requisition to determine whether the terms and conditions of
          the deliverable met the needs of the organization and the results were realized.
       C. If the contract did not deliver the benefits and the goods and services were not used,
          evaluated the management controls to determine the cause.


                                                                                         Page 7
                Contracting for Information Technology Goods and Services
                Generally Provided Intended Benefits; However, Maintenance
                           Contracts Were Not Always Supported



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Thomas Polsfoot, Audit Manager
Dan Ardeleano, Senior Auditor
Alan Beber, Senior Auditor
Cari Fogle, Senior Auditor
George Franklin, Senior Auditor
Jimmie Johnson, Senior Auditor




                                                                                         Page 8
                Contracting for Information Technology Goods and Services
                Generally Provided Intended Benefits; However, Maintenance
                           Contracts Were Not Always Supported



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Procurement OS:A:P
Director, End User Equipment and Services OS:CIO:I:EU
Director, Office of Procurement Policy OS:A:P:P
Manager, Program Oversight Office OS:CIO:SM:PO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Director, Procurement OS:A:P




                                                                                 Page 9
    Contracting for Information Technology Goods and Services
    Generally Provided Intended Benefits; However, Maintenance
               Contracts Were Not Always Supported



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 10
Contracting for Information Technology Goods and Services
Generally Provided Intended Benefits; However, Maintenance
           Contracts Were Not Always Supported




                                                      Page 11
Contracting for Information Technology Goods and Services
Generally Provided Intended Benefits; However, Maintenance
           Contracts Were Not Always Supported




                                                      Page 12
Contracting for Information Technology Goods and Services
Generally Provided Intended Benefits; However, Maintenance
           Contracts Were Not Always Supported




                                                      Page 13
